No. 19-1189
IN THE

~upr.cnt£ Qinurt nf tly.c ~nit.co ~tat.cs
BP P.L.C., ET AL.,
Petitioners,
V.

MAYOR AND CITY COUNCIL OF BALTIMORE,

Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Fourth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I certify that the BRIEF OF
AMICI CURIAE BOULDER COUNTY, SAN MIGUEL COUNTY, AND THE
CITY OF BOULDER, COLORADO, IN SUPPORT OF RESPONDENT contains
7 409 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020.

Marco Simons
Counsel of Record

EARTHRIGHTS INTERNATIONAL

1612 K Street, N.W., Suite 401
Washington, D.C. 20006
(202) 466-5188
marco@earthrights.org

